                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS




                                                                             ~~
                                             CLOSEOUT MEMORANDUM

Case Number: A09-030022                                                                 Page 1 of 1



         A proactive review resulted in an allegation of plagiarized text within an NSF proposal'. Upon
         hrther review, the amount of plagiarism contained within the proposal was found to be not
         significant enough to warrant hrther investigation.
                     I

         Accordingly, this case is closed.




          '


NSF OIG Form 2 (1 1/02)
